GR-90-98-023
U.S. DEPARTMENT OF JUSTICE
 

Audit Report
 
OFFICE OF COMMUNITY ORIENTED POLICING SERVICES
GRANTS TO THE EAST PALO ALTO POLICE DEPARTMENT
CALIFORNIA
GR-90-98-023
MAY 1998
 
 
EXECUTIVE SUMMARY
 
The Office of the Inspector General, Audit Division, has completed an audit of four
grants awarded by the U.S. Department of Justice (DOJ), Office of Community Oriented
Policing Services (COPS), to the East Palo Alto Police Department (EPAPD), California. The
EPAPD received a grant of $75,000 to hire 1 sworn officer under the Funding Accelerated
for Smaller Towns (FAST), $165,000 to redeploy 15.4 sworn officer full-time equivalents
(FTEs) to community policing under the Making Officer Redeployment Effective program
(MORE), $300,000 to hire 4 sworn officers under the Universal Hiring Program (UHP I), and
$1,050,000 to hire 14 sworn officers under the UHP supplemental award (UHP II). The
purpose of the additional officers under each of the grant programs is to enhance
community policing efforts. 
Due to the EPAPD's failure to meet the terms and conditions of all of the grants, we
are questioning $121,063 in funds received under the FAST and MORE grant programs. In
addition, $1.4 million in funds should be withheld as funds to better use until the EPAPD
increases the number of city funded sworn police officers to their baseline level.
In brief, our audit determined that:


- The EPAPD did not have a plan to demonstrate and document the redeployment of 15.4
    sworn officer FTEs to community policing ensuing from the MORE grant which resulted in
    $56,516 of unsupported costs. 
- The EPAPD was overpaid $64,431 for the MORE grant because of a billing error.
- The EPAPD supplanted their FY 1998 staffing levels because the FY 1998 staff level
    fell to 14 city funded sworn officer positions. This is 16 positions less than their
    baseline sworn staff level of 30 officers. As of our audit, the EPAPD had not requested
    reimbursement for these positions under the FAST, UHP I, and UHP II grants. Because the
    EPAPD supplanted these positions in FY 1998 and did not submit a request for
    reimbursement, the FAST, UHP I, and UHP II grant awards should be reduced $237,500 to
    offset the period supplanted in FY 1998. All future payments should be withheld and the
    funds put to better use until the EPAPD increases their staffing levels to the baseline
    level of 30 city funded sworn police officers.
- Because the EPAPD supplanted their FY 1998 operating budget with COPS funds, they did
    not enhance community policing activities with the number of sworn officers equal to the
    number of COPS grant funded officers.


 
#####